September 2007
Report No. AUD-07-011


FDIC’s Dedicated Examiner Program for
Large Insured Depository Institutions




            AUDIT REPORT
                                                                                                              Report No. AUD-07-011
                                                                                                                     September 2007


                                                  FDIC’s Dedicated Examiner Program for Large Insured
                                                  Depository Institutions

                                                  Results of Audit

                                                  The FDIC’s DE Program is contributing to the FDIC’s efforts to assess and quantify
                                                  the risks to the DIF posed by the largest banks. More specifically, the DE Program
Background and Purpose of Audit                   has been successful in providing the FDIC with supervisory information related to the
                                                  operations at the six largest insured institutions and risks associated with those
The FDIC is responsible for maintaining           institutions. The DE Program has provided the FDIC with information related to
stability and public confidence in the nation’s   those institutions’ organizational and legal structures; international activities;
financial system by examining and                 business segments; insured deposits; various types of risks, including credit, market,
supervising financial institutions, insuring      and interest rate; and supervisory actions and strategies—all of which are important
deposits, and resolving failed financial          in assessing and mitigating risk to the DIF. FDIC officials indicated that the DE
institutions and managing receiverships. As       Program has been an effective mechanism through which supervisory, insurance, and
of March 31, 2007, the FDIC insured               resolution-related information is obtained.
8,650 depository institutions and was the
federal banking agency (FBA) for 5,216 of         Further, the DEs have complied with DSC guidance on reporting information relative
those institutions, which included state-         to DE Program institutions and have established effective working relationships with
chartered banks that are not members of the       the institutions and their respective FBAs—OCC and OTS officials—as well as FDIC
Federal Reserve System, generally known as        officials in the Division of Insurance and Research and Division of Resolutions and
state non-member banks; state-chartered           Receiverships. These officials generally agreed that the program is useful and
savings institutions; and state-licensed          working as intended. As of March 31, 2007, the DE Program banks held assets
insured branches of foreign banks.                totaling about $4.7 trillion and domestic deposits totaling about $3.0 trillion.

The FDIC’s Division of Supervision and            Financial Institutions Included in the FDIC’s DE Program
Consumer Protection (DSC) is responsible            DE Program Financial         Total Assets     Total Domestic Deposits
for the FDIC’s Large Insured Depository                  Institution            ($ in millions)        ($ in millions)       FBA
Institutions (LIDI) Program, which consists
                                                   JPMorgan Chase Bank              $1,224,104                   $644,313    OCC
of financial institutions with consolidated
banking assets that exceed $10 billion. There      Bank of America                  $1,204,472                   $760,832    OCC
are 119 insured institutions covered by the        Citibank                         $1,076,949                   $690,805    OCC
LIDI Program, 25 of which are FDIC
supervised. The 119 institutions had total         Wachovia Bank                      $518,753                   $346,971    OCC
assets exceeding $9 trillion and total deposits    Wells Fargo Bank                   $396,847                   $313,353    OCC
of $5.6 trillion, which is comprised of both
insured and uninsured deposits. To assist the      Washington Mutual Bank             $318,295                   $213,337     OTS
FDIC in assessing the risks associated with        Totals                            $4,739,420                $2,969,611
the largest institutions in the LIDI program
                                                  Source: The FDIC’s Institution Directory.
that are not FDIC-supervised, the FDIC and
the other FBAs established the Dedicated
                                                  The increasing complexity of the industry and the growing concentration of risk to
Examiner (DE) Program in 2002. Currently,
                                                  the DIF in the largest banking organizations are expected to become more
the DE Program includes six LIDIs
                                                  pronounced over time and to present greater risk management challenges to the
supervised by either the Office of the
                                                  FDIC. The FDIC’s DE Program is a significant resource for the FDIC, and the DEs
Comptroller of the Currency (OCC) or the
                                                  have provided information that has enhanced the FDIC’s efforts to identify, monitor,
Office of Thrift Supervision (OTS) as shown
                                                  and assess risks for large, complex banks that are not supervised by the FDIC.
in the table.

The objective of the audit was to determine       Recommendations and Management Response
whether the DE Program is contributing to
the FDIC’s efforts to assess and quantify the     The report does not contain recommendations. However, the FDIC provided a
risks posed by the largest institutions to the    response stating, in part, that the LIDI and DE Programs are effective tools in
Deposit Insurance Fund (DIF).                     understanding and assessing risk to the DIF and that the FDIC will continue to assess
                                                  means for improving the efficiency and overall effectiveness of these programs.

To view the full report, go to
www.fdicig.gov/2007reports.asp
                               TABLE OF CONTENTS

BACKGROUND                                                                       2

RESULTS OF AUDIT                                                                 5
  DE Program Contributions to the FDIC’s Efforts to Assess and Quantify Risks    6
  Analytical Reports and Information                                             9
  Conclusion                                                                    10

CORPORATION COMMENTS                                                            10

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY                                   11

APPENDIX II: PROVISIONS OF THE 2002 INTERAGENCY AGREEMENT                       15
              RELATED TO LARGE INSTITUTIONS
APPENDIX III: CORPORATION COMMENTS                                              16

TABLES

Table 1:   FDIC-Insured Depository Institutions and Large Bank Programs          1
Table 2:   Financial Institutions Included in the FDIC’s DE Program              4
Table 3:   Analysis of Large Insured Depository Institutions                     5
Table 4:   DE Compliance with DSC Guidance                                       8
Table 5:   Synopsis of Prior Coverage                                           14

ACRONYMS

CM                Case Manager
DE                Dedicated Examiner
DIF               Deposit Insurance Fund
DIR               Division of Insurance and Research
DRR               Division of Resolutions and Receiverships
DSC               Division of Supervision and Consumer Protection
FBA               Federal Banking Agency
FRB               Board of Governors of the Federal Reserve System
GAO               Government Accountability Office
LIDI              Large Insured Depository Institution
NRC               National Risk Committee
OCC               Office of the Comptroller of the Currency
OIG               Office of Inspector General
OTS               Office of Thrift Supervision
RAC               Risk Analysis Center
RD                Regional Director
RO                Regional Office
U.S.C.            United States Code
    Federal Deposit Insurance Corporation                                                                       Office of Audits
    3501 Fairfax Drive, Arlington, VA 22226                                                        Office of Inspector General


DATE:                                          September 13, 2007

MEMORANDUM TO:                                 Sandra L. Thompson, Director
                                               Division of Supervision and Consumer Protection

                                               /Signed/
FROM:                                          Russell A. Rau
                                               Assistant Inspector General for Audits


SUBJECT:                                       FDIC’s Dedicated Examiner Program for
                                               Large Insured Depository Institutions
                                               (Report No. AUD-07-011)


This report presents the results of the subject FDIC Office of Inspector General (OIG) audit. The
FDIC’s Division of Supervision and Consumer Protection (DSC) is responsible for the FDIC’s
Large Insured Depository Institutions (LIDI) 1 Program, which has the primary objective to
assess and quantify the risks posed by large institutions (those with consolidated banking assets
exceeding $10 billion) from a deposit insurer’s perspective. To assist the FDIC in assessing the
risks associated with the largest institutions in the LIDI Program, the FDIC and the other federal
banking agencies (FBA) established the Dedicated Examiner (DE) Program in 2002. That
program currently includes five financial institutions supervised by the Office of the Comptroller
of the Currency (OCC) and one supervised by the Office of Thrift Supervision (OTS). The DE
Program was established to obtain real-time access to information about the risks and trends in
the largest insured institutions that are not supervised by the FDIC.

Table 1 shows the financial institutions insured by the FDIC and how they relate to the FDIC’s
insurance and supervisory responsibilities and its large bank programs.

       Table 1: FDIC-Insured Depository Institutions and Large Bank Programs
                                                                          Total Assets             Total Deposits*
                                              Number of Institutions      ($ in millions)             ($ in millions)
        Total FDIC Insured                           8,650                     $12,149,058                    $8,009,738
        Total FDIC Supervised                        5,216                      $2,239,837                    $1,676,420
        LIDI FDIC Insured                             119                       $9,072,444                    $5,665,043
        LIDI FDIC Supervised                          25                         $668,479                      $465,834
        DE FDIC Insured                                6                        $4,739,420                    $2,969,611
       Source: OIG review of FDIC Institution Directory data and the FDIC’s Statistics At a Glance, as of March 31, 2007.
       * Total deposits depicted include FDIC-insured and uninsured amounts.




1
  Although LIDI companies are primarily organized as holding companies, the LIDI program also includes unit
banks and thrifts that meet the size thresholds and includes FDIC-supervised and non-FDIC supervised financial
institutions.
The objective of the audit was to determine whether the DE Program is contributing to the
FDIC’s efforts to assess and quantify the risks posed by the largest institutions to the Deposit
Insurance Fund (DIF). We conducted this performance audit in accordance with generally
accepted government auditing standards. Appendix I of this report discusses our audit objective,
scope, and methodology in detail.

BACKGROUND

The FDIC is responsible for maintaining stability and public confidence in the nation’s financial
system by examining and supervising financial institutions, insuring deposits, and resolving
failed financial institutions and managing receiverships. These responsibilities are shared among
the FDIC’s three major business lines—DSC, the Division of Insurance and Research (DIR), and
the Division of Resolutions and Receiverships (DRR). Generally, DSC is responsible for the
safety and soundness of FDIC-supervised insured depository institutions, protecting consumers’
rights, and promoting community investment initiatives by the institutions. DSC is also
responsible for operating a number of supervisory and risk assessment programs to evaluate risks
presented by large, complex banks as discussed later in this report. DIR is responsible for
providing the public with a sound deposit insurance system by (1) providing comprehensive
statistical information on banking; (2) identifying and analyzing emerging risks; (3) conducting
research that supports sound deposit insurance, banking policy, improved risk assessment, and
consumer protection; and (4) assessing the adequacy of the DIF and implementing an effective
and fair risk-based premium system. Finally, the resolutions and receivership management
functions of DRR ensure that recovery to creditors of receiverships is achieved in the least costly
manner for all failed insured depository institutions.

Monitoring of Large Insured Depository Institutions

Given the growing concentration of the FDIC’s financial risk in a smaller number of institutions,
DSC’s supervisory and analysis processes have expanded for large banks, particularly through its
Large Bank Supervision Branch. DSC’s large-bank supervision activities can be categorized
into three general areas: (1) direct supervision and risk assessment of state nonmember banks;
(2) monitoring and risk assessment of national, state member, and thrift institutions; and
(3) policy development. DSC’s Large Bank Supervision Branch coordinates the DE Program,
LIDI Program, and Large State Nonmember Bank Supervisory Program. 2 In addition, the Large
Bank Supervision Branch reviews and aggregates data on large banks to identify trends and
emerging risks and communicates these trends and risks to the FDIC’s Board of Directors and
senior management, the other FBAs, and DSC staff. At large institutions where the FDIC is not




2
    The 25 institutions included in this program represent all of the LIDIs that are directly supervised by the FDIC.

                                                             2
the primary FBA, DSC case managers (CM) 3 and DEs are the primary points of contact with the
FBAs to assist the FDIC in monitoring risks.

Large Insured Depository Institutions Program. Assessment of the FDIC’s insurance risk at
large institutions, and the large bank sector as a whole, is the cornerstone of the FDIC’s large
bank supervision activities. The primary objective of the LIDI Program is to assess and quantify
the risks posed by large institutions from a deposit insurer’s perspective. The risk assessment
process, which provides a framework for coverage of each large institution, is based on a
combination of information obtained from the institution and the associated FBA, supervisory
activities, market data, and publicly-available information.

Dedicated Examiner Program. On January 29, 2002, the FDIC implemented an interagency
agreement entitled, Coordination of Expanded Supervisory Information Sharing and Special
Examinations, with the FBAs. The agreement’s stated objectives are to:

        establish fundamental expectations for enhanced coordination and cooperation of supervisory
        efforts by the federal banking agencies (FBA) to ensure that the FDIC is able to fulfill its
        responsibilities to protect the DIF in the most efficient and least burdensome manner possible;

        confirm the FBAs’ understanding regarding examinations, reports, meetings, examination
        personnel, and other supervisory information the FDIC will have access to related to FDIC
        responsibilities; and

        confirm the FBAs’ understanding of the general circumstances under which the FDIC will
        conduct Special Examinations 4 of insured financial institutions.

The interagency agreement (1) established parameters regarding the FDIC’s participation in
examination activities for deposit insurance purposes, (2) permitted the FDIC to establish onsite
examiners at the eight largest financial institution holding companies that are not supervised by
the FDIC, and (3) allowed the FDIC to establish the DE Program. Due to two mergers that
occurred in 2004, there are now six LIDIs in the DE Program (see Table 2 on the following
page).




3
  CM responsibilities include, but are not limited to:
    •    serving as the primary point of contact for banks assigned to a DSC regional office,
    •    providing input and guidance to regional office management regarding supervisory plans for those banks,
    •    completing all reporting requirements for LIDIs assigned to the regional office,
    •    reviewing and processing applications, and
    •    managing issues for DE Program institutions other than those related to risk to the DIF.
DEs do not perform typical CM responsibilities, including those associated with the review and processing of
applications for deposit insurance and reports of examination or drafting routine correspondence.
4
  The FDIC is authorized under 12 United States Code (U.S.C.) §1820(b)(3) to conduct “Special Examinations” of
insured depository institutions that represent a heightened risk to the DIF when the FDIC Board of Directors deems
such an examination necessary to determine the condition of the insured depository institutions for insurance
purposes.
                                                         3
Table 2: Financial Institutions Included in the FDIC’s DE Program
                                                                  Total Assets         Total Domestic Deposits
                                                               as of March 2007           as of March 2007
               DE Program Financial Institution                   ($ in millions)             ($ in millions)      FBA
    JPMorgan Chase Bank                                                 $1,224,104                      $644,313   OCC
    Bank of America                                                     $1,204,472                      $760,832   OCC
    Citibank                                                            $1,076,949                      $690,805   OCC
    Wachovia Bank                                                         $518,753                      $346,971   OCC
    Wells Fargo Bank                                                      $396,847                      $313,353   OCC
    Washington Mutual Bank                                                $318,295                      $213,337   OTS

    Totals                                                              $4,739,420                    $2,969,611
Source: The FDIC’s Institution Directory.

Under the terms of the interagency agreement, the FDIC will rely on the results of work
conducted by the FBAs in assessing the condition of DE Program institutions. The agreement
also covers other areas, including:

      •   FDIC participation in Special Examinations of financial institutions that present heightened
          risk to the DIF (institutions that are undercapitalized or receive a composite rating 5 of 3, 4,
          or 5) and

      •   information sharing between the FDIC and the three other FBAs, including access to
          supervisory personnel and information, risk assessments, supervisory plans, reports of
          examination, and other documents related to selected LIDIs.

Under the program, a DE is assigned to each of the six largest LIDIs to serve as the FDIC’s
central point of contact for supervisory, insurance, and resolutions matters and overall risk
assessment. The DEs work within the FBAs’ existing supervisory programs to avoid, to the
fullest extent possible, any increase in regulatory burden or duplication of effort to assist the
FDIC in protecting the DIF. Additionally, the DEs work closely with DSC’s Large Bank
Supervision Branch to assess ongoing risk posed by the institutions.

Appendix II of this report provides additional details on the interagency agreement’s provisions
that relate to large institutions and the DE Program.

Risks Associated with the Largest Financial Institutions

Analyses of emerging risks and trends in the financial industry or economy identified through the
DE Program and other large bank supervisory programs are reviewed by the FDIC’s Risk



5
 Each financial institution is assigned a composite rating based on these component factors: the adequacy of
Capital, the quality of Assets, the capability of Management, the quality and level of Earnings, the adequacy of
Liquidity, and the Sensitivity to market risk (CAMELS). Composite ratings are assigned based on a 1 to 5
numerical scale where a 1 indicates the highest rating, while a 5 indicates the highest degree of supervisory concern.
                                                          4
Analysis Center (RAC) 6 and the FDIC Board of Directors as part of the semiannual risk case
presentation and are incorporated into numerous FDIC publications and written reports. The
insurance risk exposure associated with large, complex financial institutions to the FDIC and the
DIF is significant, considering that as of March 31, 2007, the total insured and uninsured
deposits of the six DE Program financial institutions totaled about $3.0 trillion and the balance of
the DIF totaled $50.7 billion. In addition, according to the FDIC’s 2007 Annual Performance
Plan, the six DE Program institutions account for about 45 percent of the banking industry’s total
assets.

Notably, the FDIC is not the FBA for most of the large, complex institutions it insures and does
not supervise any of the DE Program banks. However, the FDIC is responsible for insuring
those institutions and would be responsible for resolving the failure of a DE Program bank. As
shown in Table 3, as of March 31, 2007, 119 LIDIs held assets totaling about $9 trillion. Of
those 119 institutions, only 25 institutions, with assets totaling about $668 billion and deposits
totaling about $466 billion, were supervised by the FDIC.

    Table 3: Analysis of Large Insured Depository Institutions
                                                               Total Assets
          Financial           Number of Supervised          as of March 2007         Total Deposits
       Institution FBA           Institutions                 ($ in millions)         ($ in millions)
             FDIC                     25                             $668,480                 $465,835
             FRB                      21                           $1,040,465                 $717,704
             OTS                      28                           $1,173,907                 $687,866
             OCC                      45                           $6,189,592               $3,793,638
            Totals                   119                           $9,072,444               $5,665,043
    Source: The FDIC’s Institution Directory.



RESULTS OF AUDIT

The FDIC’s DE Program is contributing to the FDIC’s efforts to assess and quantify the risks to
the DIF posed by the largest banks. More specifically, the DE program has been successful in
providing the FDIC with supervisory information related to the operations at the six largest
insured institutions and mitigating risks associated with those institutions. The DE Program has
provided the FDIC with information related to those institutions’ organizational and legal
structures; international activities; business segments; insured deposits; various types of risks,
including credit, market, and interest rate; and supervisory actions and strategies—all of which
are important for assessing risk to the DIF. FDIC officials indicated that the DE Program has
been an effective mechanism through which supervisory, insurance, and resolution-related
information is obtained.

6
  The RAC was established in 2003 to provide information about current and emerging risk issues and to coordinate
the FDIC’s risk management activities from DSC, DIR, and DRR. The RAC is staffed with employees on detail
from DSC, DIR, and DRR and uses an interdivisional approach to monitor and analyze risks to the DIF and to the
banking system. The RAC is directed by the National Risk Committee (NRC), which was also established in 2003.
The NRC consists of senior FDIC managers and is chaired by the FDIC’s Deputy to the Chairman and Chief
Operating Officer.
                                                        5
Further, the DEs have complied with DSC guidance on reporting information relative to DE
Program institutions and have established effective working relationships with the institutions
and their respective FBAs—OCC and OTS officials—as well as bank management and FDIC
officials in DSC, DIR, and DRR. These officials generally agreed that the program is useful and
working as intended.

DE Program Contributions to the FDIC’s Efforts to Assess and Quantify Risks

The DE Program serves as a means for the FDIC to obtain information on issues that could
significantly impact large, complex institutions and increase risks to the DIF. In addition, the DE
Program provides (1) information on the supervisory processes at the largest, complex financial
institutions that the FDIC does not supervise and (2) the full-time focus of one FDIC examiner
for each institution in the program.

The DEs use supervisory information, internal institution information, and external sources to
evaluate risks and assign an offsite rating 7 and overall risk profile indicator 8 for each of the six
banking organizations in the program. The DEs collaborate with each institution’s FBA and
other FDIC offices to evaluate the condition of large banks and to identify systemic risks. More
specifically, the DEs:

     •    participate in FBA-targeted reviews 9 and examination activities;

     •    access selected financial institution systems for data analysis with FBA and bank
          management knowledge and approval;

     •    attend certain financial institution management meetings that include, but are not limited
          to, audit, asset quality, economic capital, Basel II, 10 operational risks, and credit card
          operations and bank board of directors and executive management meetings;


7
  On a quarterly basis, the DEs analyze the DE Program banks’ risks to the DIF and assign a rating to each bank in
the DE Program based on information obtained from the FBA, the financial institution, and publicly-available data.
FDIC offsite ratings are based on the DE’s review of fundamental areas, including the consolidated financial
condition and trends and the assessment of the banking company’s risk management. The offsite ratings are
assigned on a scale from “A” to “E”, with “A” indicating a low level of concern regarding risk to the DIF and “E”
indicating a serious concern regarding risk to the DIF. The risks are based on probable characteristics that may
apply to the institutions.
8
  The overall risk profile indicator (a risk rating) is assigned to DE Program banks to characterize the expected
change in the banking company’s aggregate risk profile over the next 12 months. The risk profile is described as
increasing, stable, or decreasing and characterizes expected risk movement rather than anticipated changes in the
offsite rating.
9
  The FBAs develop annual supervisory strategies for their DE Program institutions, outlining the supervisory focus
for the institution, including areas of bank operations that the FBA will target for review and examine during the
year. Areas of bank operations may include, but are not limited to, allowance for loan and lease losses, Bank
Secrecy Act/Anti-Money Laundering compliance, Basel II implementation, credit derivatives, credit risk ratings,
hedge funds, and shared national credits.
10
   The objective of Basel II, International Convergence of Capital Measurement and Capital Standards: A Revised
Framework, is to more closely align regulatory capital with risk in large or multinational banks. U.S. regulators
expect that about 11 banking organizations, which account for about 50 percent of U.S. banking assets, will be
required to implement Basel II.
                                                         6
       •   respond to specific requests from FDIC headquarters and regional offices, for example
           requests for information related to hedge funds, and collateralized debt obligations; and

       •   report to DSC headquarters and regional offices on significant events, issues, and
           challenges related to the DE institutions, and submit information on the risk profiles for
           the institutions.

Potentially heightened insurance risks identified through the DE and other large bank supervision
programs are reported to FDIC senior executives, who determine an appropriate course of action.

Additionally, the FDIC has issued the following DE Program guidelines. The related DE
responsibilities are listed in Table 4 on the next page:

   •       Regional Directors (RD) Memorandum, Dedicated Examiner Program Guidelines,
           May 2, 2003;

   •       RD Memorandum, Large Insured Depository Institutions (LIDI) Process Redesign,
           January 20, 2004; and

   •       RD Memorandum, Large Insured Depository Institution Risk Monitoring Program,
           February 2, 2006.

We interviewed the DEs and reviewed reports and information (described later in this report) that
the DEs provided to DSC management regarding their respective financial institutions. As
shown in Table 4, we determined that the DEs are complying with DSC guidance to provide
specific risk-related information to FDIC management.




                                                   7
Table 4: DE Compliance with DSC Guidance
                             Dedicated Examiner Responsibilities                                   Complied
                 The “9” indicates that the DEs complied with DSC guidance.
 Develop and submit various written analytical reports:
    • Quarterly Executive Summary Report                                                              9
    • Annual Business Profile                                                                         9
    • Annual Risk Assessment Plan                                                                     9
    • Ad Hoc Reports                                                                                  9
 Provide periodic presentations for the RAC                                                           9

 Attend quarterly formal meetings at FDIC headquarters                                                9

 Use FDIC corporate specialists such as credit specialists, capital market specialists, Basel         9
 representatives, and statisticians to assist with targeted examinations or special projects

 Store documents related to the DE Program banks on DSC’s Large Bank secure Website                   9

 Communicate with FBA and financial institution personnel                                             9

 Develop and submit an FDIC Risk Assessment Plan to the regional office for approval (for             9
 companies with total assets exceeding $50 billion, or those that intend to opt-in for
 Basel II)

 Establish regular communication with FBA examination staff                                           9

 Assess legal entity information to ensure the FDIC's mission critical information needs are          9
 met in the areas of insured deposit information and resolutions-related information

 Work with the FBAs to:

    •   identify FBA reports and institution-generated reports that will be useful in the             9
        analysis of key risk areas;

    •   identify selected supervisory activities that are mutually beneficial to participate in       9
        and that will increase the DEs’ understanding of issues relevant to FDIC risk
        assessment needs;

    •   gain an understanding of their assessment of the institution's Basel II qualification         9
        and ongoing validation efforts and supervisory procedures designated to evaluate
        related systems and processes; and

    •   make Basel II data available for the purpose of comparing risk estimates with those           9
        of other institutions to measure consistency and identify outliers and other risk trends
        posed by the institution.

Source: OIG review of DSC guidance and DE analytical reports.




                                                       8
Analytical Reports and Information

As shown in Table 4 earlier, the DEs develop and submit various written analytical reports to
FDIC management. The DEs submit standard reports to DSC to assist in identifying,
monitoring, and assessing the overall risk associated with the DE Program banks. For example,
in addition to providing an overall offsite rating and risk rating, the DEs’ Quarterly Executive
Summary Report provides information on a DE Program bank that includes, but is not limited to,
the following.

                 Examples of Information Included in DE Quarterly Executive
                                     Summary Reports

 9 Corporate overview                        9 Market agency ratings
 9 Risk profile                              9 Enforcement actions
 9 Supervisory program                       9 Earnings
 9 Economic capital                          9 Credit, market, and interest rate risk
 9 Implementation of Basel II                9 Derivatives

 Source: DE Program Quarterly Executive Summary Reports.




Annual business profiles prepared by the DEs provide additional information on DE Program
banks, such as information on business segments; legal entities and subsidiaries; significant
events, such as acquisitions and mergers, strategies, and business plans; and an overview of the
bank’s management.

The FDIC’s Annual Risk Assessment Plan for each DE Program financial institution outlines
information, including, but not limited to:

  •   assessment of safety and soundness issues;
  •   bank management’s view of the institution’s associated risk;
  •   FBA and, if applicable, Board of Governors of the Federal Reserve System (FRB)
       supervisory coverage;
  •   risk to the DIF and risk-related premium analysis;
  •   insured deposit growth projection;
  •   resolutions considerations;
  •   determination of deposit insurance issues;
  •   marketability of assets;
  •   assessment of legal entities;
  •   Basel II implementation;
  •   international exposures; and
  •   DE activities.

The DEs also submit various ad hoc reports to assist DSC in assessing risks posed by the DE
Program banks. Those reports have included information related, but not limited to,
nontraditional mortgages, collaterized debt obligations, and hedge funds.


                                                           9
Further, the DEs present information at Large Bank Supervision Branch meetings, RAC
presentations, National and Regional Risk Committee meetings, and briefings to the FDIC
Chairman and Vice Chairman. The reports DEs provide assist DSC in evaluating the unique
risks that are posed by the six largest insured institutions and provide ongoing information and
expanded analyses of emerging risk issues associated with the DE banks as they arise. We
reviewed the most recent standardized reports prepared by the six DEs and attended one DE’s
presentation to the RAC and determined that the DEs complied with appropriate DSC guidance
on DE responsibilities in this area.

In addition to obtaining supervisory information, the DEs obtain information from the FBAs that
can assist DIR and DRR in identifying and monitoring insurance and resolution issues. To
illustrate, the DEs regularly provide information to DIR to assist with deposit insurance pricing
and to DRR on deposit growth forecasts. Further, DRR regional managers meet with DEs to
discuss resolution considerations. In addition, DEs have included resolution considerations in
their presentations and standard reports. Such considerations relate to insured deposit
determination issues, diverse and liquid assets, complex information technology operations, non-
bank affiliate businesses, and the number of countries with which the bank has international
business. DRR is in the process of providing additional guidance to DSC and the DEs on the
type of information it needs for resolution preparedness purposes.

Conclusion

The increasing complexity of the industry and the growing concentration of risk to the DIF in the
largest banking organizations are expected to become more pronounced over time and to present
greater risk management challenges to the FDIC. These changes in the banking industry will
have significant operational implications for the FDIC’s three major business lines and pose
increased risk to the DIF because of the potential for significant losses that may result from the
failure of a single large institution. In response to these challenges, the FDIC has been
augmenting its supervisory and surveillance efforts to manage insurance risk. The FDIC’s DE
Program is a significant resource for the FDIC, and the DEs have provided information that has
enhanced the FDIC’s efforts to identify, monitor, and assess risks for large, complex banks,
which are not supervised by the FDIC. The DE Program has been an effective mechanism
through which supervisory, insurance, and resolution-related information is obtained.


CORPORATION COMMENTS

The Director, DSC, provided a written response to a draft of this report on September 6, 2007.
DSC’s response is presented in its entirety in Appendix III of this report. The Director stated
that access to insured depository institution data is critical to the FDIC’s mission and that the
LIDI and DE Programs are effective tools in better understanding and assessing risk. The
Director also stated that the division will continue to assess means for improving the efficiency
and overall effectiveness of these programs.




                                                10
                                                                                    APPENDIX I


                       OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of this audit was to determine whether the FDIC’s DE Program is contributing to
the FDIC’s efforts to assess and quantify the risks posed by the largest institutions to the DIF.
We conducted this performance audit from November 2006 through July 2007 in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objective.

Scope and Methodology

To achieve our audit objective, we:

   •   Obtained an understanding of (1) the DE Program and its relation to other FDIC branches
       and programs such as the LIDI program and (2) the FDIC’s and DEs’ relationship and
       coordination with FBAs for financial institutions in the DE program.

   •   Obtained an understanding of guidance related to the DE Program including:
       (1) Interagency Agreement, Coordination of Expanded Supervisory Information Sharing
       and Special Examinations, March 28, 2002; (2) DSC RD Memorandum, Dedicated
       Examiner Program Guidelines, May 2, 2003; RD Memorandum, Large Insured
       Depository Institutions (LIDI) Process Redesign, January 20, 2004; RD Memorandum
       Large Insured Depository Institution Risk Monitoring Program, February 2, 2006, and
       other examiner guidance; (3) FDIC Case Managers Procedures Manual; and (4) FDI Act
       authorities and applicable regulations.

   •   Interviewed DSC officials in Washington, D.C., and selected regional/field offices and
       the six DEs assigned to the six financial institutions in the DE Program.

   •   Interviewed (1) DIR personnel to determine whether the division is obtaining information
       from DSC to assess the risk to the insurance fund and determine appropriate insurance
       assessments; (2) DRR personnel to determine whether the division is obtaining
       information from DSC to plan for a possible large bank failure; and (3) FBA officials in
       Washington, D.C., and examination staff for the DE Program banks.

   •   Reviewed analytical and summary reports prepared by DEs, DE work papers, and other
       pertinent documentation.

   •   Coordinated with the FDIC Office of the Ombudsman.




                                                11
                                                                                              APPENDIX I


Internal Controls

We evaluated the effectiveness of controls in place for the DE Program. These controls included
the policies and procedures for complying with the 2002 Interagency Agreement and other
guidance that the FDIC has issued to DEs.

Reliance on Computer-based Data

We did not rely on computer-based data to answer the audit objective. Therefore, we did not test
or validate the accuracy of computer-based data that the FDIC maintained on financial
institutions included in the DE Program.

Compliance With Laws and Regulations

We concluded that there are no specific laws or regulations that mandate a DE or LIDI program.
Each of the programs falls under the general authority to conduct examinations under Sections 9
and 10(b) of the Federal Deposit Insurance Act.11 Further, we concluded that although the
interagency statement of policy on examination coordination applies to the DE Program, as
outlined in the March 2002 examination guidance, that statement of policy does not have a
specific legal requirement but, rather, is based on interagency coordination.

Government Performance and Results Act

Based on our review of the FDIC’s 2007 Annual Performance Plan, the 2007 Corporate
Performance Objectives, the 2005-2010 Strategic Plan, and DSC divisional goals and objectives,
we concluded that the FDIC has established performance measures that relate to large insured
depository institutions, in general, and to the DE Program, in particular. Those performance
measures include coordination with DIR and DRR and with FBAs regarding assessing risk to the
DIF for LIDI and DE banks. Specifically, the FDIC has established goals to:

        •   Enhance the effectiveness of the FDIC’s current risk management and compliance
            supervisory programs.

        •   Restructure the existing LIDI analysis program to enhance the usefulness of the
            supervisory, insurance pricing, and resolution information it produces.

        •   Identify and address risks to the DIF by assessing the insurance risks in 100 percent
            of insured depository institutions and adopt appropriate strategies.

        •   Enhance the FDIC’s ability to insure, supervise, and resolve large and/or complex
            insured institutions.



11
  Section 9 is codified to 12 United States Code (U.S.C.) §1819(a) and Section 10 is codified to 12 U.S.C.
§1820(b). Notes to the Federal Deposit Insurance Improvement Act require improved examinations (12 U.S.C.
3355), but there is no specific requirement for the LIDI or DE Programs.
                                                      12
                                                                                     APPENDIX I

       •   Develop and conduct simulation testing of resolution templates for complex business
           lines or strategies that would be encountered in a large institution failure. Begin
           development of institution-specific resolution plans based on those templates for the
           LIDIs.

       •   Publish a Notice of Proposed Rulemaking by December 31, 2007, to enhance the
           FDIC’s ability to make deposit claims determinations in conjunction with the
           resolution of a large bank failure.

       •   Ensure, on an ongoing basis, that the FDIC has the necessary skills in its workforce to
           effectively address current and emerging safety and soundness and compliance risks.

       •   Develop a process for risk-scoping institutions with total assets greater than
           $10 billion that is based upon supervisory, insurance, and resolution needs. Use this
           process as a basis for assigning responsibilities among examiners, CMs, examination
           specialists, and DEs.

       •   Identify proposed supervisory criteria to determine when the LIDIs require a DE, and
           secure OCC agreement on these criteria.

Fraud and Illegal Acts

The nature of the audit objective did not require that we assess the possibility for fraud and
illegal acts. However, throughout the audit, we were alert to the possibility of fraud and illegal
acts, no instances came to our attention.

Prior Coverage

The FDIC OIG and the Government Accountability Office (GAO) have issued audit reports that
relate to the assessment of risk in large insured depository institutions. Table 5, on the next page,
provides a synopsis of the prior FDIC and GAO audit coverage of the assessment of risk in large
financial institutions.




                                                 13
                                                                                                       APPENDIX I


Table 5: Synopsis of Prior Coverage
 Follow-up Audit of the FDIC’s Use of Special Examination Authority and DOS’s Efforts to Monitor Large Bank
 Insurance Risks, Report No. 02-004, dated February 20, 2002.
 Objective   To assess the progress that the FDIC made since the issuance of the OIG’s previous memorandum on special
             examination authority and to make recommendations that might improve the Corporation’s effectiveness in
             working with the other federal regulators.

 Results      The FDIC had not always been able to promptly secure permission to participate in examinations of banks
              supervised by the OCC and OTS. The audit identified three situations in which regulators turned down FDIC
              requests to participate in scheduled safety and soundness examinations. The OIG recommended that the
              Director, Division of Supervision (now DSC), (1) pursue an amendment to Section 10(b)(3) of the FDI Act
              (12 U.S.C. section 1820(b)(3)) to vest special examination authority with the FDIC Chairman, in consultation
              with the appropriate primary federal regulator; (2) seek a revised Board delegation that vests special
              examination authority with the FDIC Chairman, in consultation with the appropriate primary federal regulator,
              as an interim measure, pending a legislative amendment; and (3) work to develop agreements with the other
              bank regulatory agencies to provide the FDIC with the timely information and access to megabanks necessary
              to carry out the Corporation’s responsibilities as the insurer.

 Risk-Focused Bank Examinations—Regulators of Large Banking Organizations Face Challenges, GAO/GGD-00-48,
 dated January 24, 2000.
 Objective    The GAO studied the risk-focused approaches used by the FRB and OCC. The objectives were to (1) describe
              the general characteristics of the regulators’ risk-focused approach to examinations of large, complex banks,
              explaining how they differ from past examination practices; (2) compare the implementation of the FRB’s and
              OCC’s risk-focused examination approaches; and (3) identify the challenges faced by both agencies as they
              continued to implement their examination programs for large, complex banks.

 Results      The GAO concluded that regulators face a number of challenges as they continue to implement their
              examination programs for large, complex banks. One key challenge, inherent in the design of the risk-based
              program, is how to identify the aspects of bank operations where examiners’ attention should be concentrated.
              A second challenge is maintaining an awareness of industry-wide risk in an institution-specific examination
              program. Another is ensuring that examiners’ risk assessments are not overly influenced by the bank’s risk-
              management systems on which they must rely. Finally, both the FRB and OCC recognize that maintaining
              sufficient staffing numbers and expertise to examine increasingly large, complex banks continues to be a
              major challenge.

 Financial Market Regulation: Agencies Engaged in Consolidated Supervision Can Strengthen Performance
 Measurement and Collaboration, GAO-07-154, dated March 15, 2007.
 Objective  The GAO reviewed the consolidated supervision programs at the FRB, OTS, and Securities and Exchange
            Commission to (1) describe policies and approaches that U.S. consolidated supervisors use to oversee large
            and small holding companies; (2) review the management of the consolidated supervision programs, including
            use of program objectives and performance measures; and (3) evaluate how well consolidated supervisors are
            collaborating with other supervisors and each other in their activities. In conducting this study, GAO
            reviewed agency policy documents and supervisory reports and interviewed agency and financial institution
            officials.

 Results      The GAO recommended that the three agencies direct their staffs to develop a set of clear and consistent
              objectives and related performance measures specific to consolidated supervision and collaborate more
              systematically with each other and with other supervisors. The agencies generally agreed with these
              recommendations.

Source: FDIC OIG and GAO reports related to the assessment of risk in large insured depository institutions and
consolidated supervision.




                                                             14
                                                                                                 APPENDIX II


                PROVISIONS OF THE 2002 INTERAGENCY AGREEMENT
                        RELATED TO LARGE INSTITUTIONS

On March 28, 2002, the FDIC issued an RD Memorandum entitled, Coordination of Expanded
Supervisory Information Sharing and Special Examinations, which outlines the parameters for
interagency coordination related to large insured institutions, including the DE Program banks.
The interagency agreement contains the following provisions related to large insured institutions,
in general, and DE Program banks, in particular.

       • On an ongoing basis, the OCC, FRB, and OTS will provide the FDIC with access to supervisory
       personnel and information, including risk assessments, supervisory plans, reports of examination and other
       documents related to LIDIs. Similarly, the FDIC will provide access to the same types of supervisory
       information, if any, to the OCC, FRB and OTS.

       • On at least a quarterly basis, representatives of the OCC, FRB, and OTS will meet with representatives
       of the FDIC to discuss the risk profile, current condition, and status of identified supervisory matters
       requiring attention of all LIDIs.

       • In addition, the FDIC will establish a dedicated examiner program with respect to the eight largest
       banking organizations (collectively as “Largest Banks,” individually as an “Assigned Institution”). The DE
       Program will work within existing supervisory programs of the appropriate Agencies so as to avoid, to the
       fullest extent possible, any increase in regulatory burden or duplication of effort.

       • The person designated as dedicated examiner will be the FDIC’s primary point of contact with Agency
       supervisory personnel as it relates to the supervision of the Assigned Institution. Agency supervisory
       personnel are expected to keep the dedicated examiner informed of all material developments in the
       supervision of the Assigned Institution and will invite the dedicated examiner to observe and participate in
       certain examination activities to ensure the FDIC has an understanding of the supervisory issues and risk
       management structure of the Assigned Institution.

       • The FDIC will fully participate in the review and assessment of the risk of the credits within the Shared
       National Credit Program in LIDIs and other depository institutions.

       • When the Agencies agree that participation by the FDIC is appropriate to evaluate the risk of a particular
       banking activity to the deposit insurance funds, the FDIC dedicated examiner and other staff, as
       appropriate, should participate with the appropriate Federal banking agency in selected supervisory reviews
       of that activity, including meetings with bank management relating to those reviews. In the event
       Agencies’ staff cannot agree, the respective Agencies’ representatives to the FFIEC Supervision Task
       Force will determine whether FDIC participation is appropriate. In the event the two representatives cannot
       agree, the Chairman of the FDIC and the principal of the relevant Agency (or the Governor that is a
       member of the FFIEC in the case of the FRB) will resolve the dispute.




                                                       15
                       APPENDIX III


CORPORATION COMMENTS




         16
